IN THE SUPREME COURT OF THE UNITED STATES

Nos. 19-416, 19-453

NESTLE USA, INC., Petitioner,
v.
JoHN DoE |, et al. Respondents.
CARGILL, INCORPORATED, Petitioner,
v.
JOHN DoE I, et al. Respondents.

CERTIFICATE OF COMPLIANCE

I, Richard Samp, counsel for amicus curiae Washington Legal Foundation, et al., and a
member of the Bar of this Court, hereby certify pursuant to Supreme Court Rule 33(g) and (h)
that this amicus curiae brief complies with the word limitations imposed by those rules.
According to the word processing system used to prepare the brief (WordPerfect X5), the word

count of the brief is 4,932, not including the cover, table of contents, table of authorities, and

biblh

Richard A. Samp
Washington Legal Foundation
2009 Massachusetts Ave., NW
Washington, DC 20036

(202) 588-0302

signature block.

 

Dated: October 28, 2019
